9/13/2021

Visa Signature Rewards | Members 1st Federal Credit Union

VISA SIGNATURE® REWARDS DISCLOSURE

INTEREST RATE AND INTEREST CHARGES

Annual Percentage
Rates (APR) for
Purchases

12.00% to 18.00%,

based on your creditworthiness at time of application. After account opening,

your APR will vary with the market based on the Prime Rate.

APR for Cash Advances

12.00% to 18.00% when you open your account, based on your creditworthiness. After account

and Balance Transfers

opening, your APR will vary with the market based on the Prime Rate.

Penalty APR and When
It Applies

18.00% If your account becomes 60 days delinquent.
How long will the Penalty APR Apply? If your APRs are increased for the reason above, the Penalty APR
will be applied to your balances for a minimum of six (6) months or payment cycles.

Your due date is approximately twenty-five (25) days after the close of each billing cycle. We will not
How to Avoid Paying
charge you interest on purchases if you pay your entire balance by the due date each month. We will begin
Interest on Purchases
charging interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips
from the Consumer

To learn more about factors to consider when applying for or using a credit card, visit the website of the

Financial Protection

Consumer Financial Protection Bureau at www.consumerfinance.gov/learnmoree.

Bureau

Transaction Fees

Annual Fees

None

Balance Transfer

None

Cash Advance

5% of the amount advanced. Minimum advance amount of $20.00

Foreign Transaction
None
Fees

ATM Transaction

5% of the amount advanced. Minimum advance amount of $20.00

Penalty Fees

Up to twenty-seven dollars ($27.00) the first time, any subsequent violation within six (6) months up to
Late Payment
thirty-seven dollars ($37.00). This applies to payments received after five (5) days from the due date.

Over Limit Fee (Opt In)

Up to $15.00

Return Payment

$20.00

Other Fees

Card Replacement

$10.00

Returned Statement

You will be charged one dollar ($1.00) for each monthly billing statement that is returned.

Copies of Visa

You will be charged three dollars ($3.00) for each copy you request of a receipt for any purchase, credit,

Transaction Receipts

Cash Advance, or of a monthly billing statement (except in connection with the resolution of a billing

and Statements

error).

How We Will Calculate Your Balance: We use a method called "average daily balance" (including new purchases). See your account
agreement for further information regarding how we calculate your balance. The above rates and fees are current as of April 1, 2020.
The variable APRs are based on the current Prime Rate of 3.25%.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided on your monthly
account statement.

https://www.members1st.org/personal/spend/visa-cards/visa-signature-rewards-disclosure

1/2

9/13/2021

Visa Signature Rewards | Members 1st Federal Credit Union
Cash Rewards Information: Your Members 1st FCU Visa Signature® Rewards card will earn 1.5% cash rewards on all new qualifying
net purchases (less credits, returns and adjustments). Balance Transfers, Cash Advances, purchasing of money orders or cash
equivalents (including ATM advances) are not eligible for cash rewards. Should your account become 90 days or more delinquent or
fall out of good standings any and all accumulated cash rewards will be forfeited.

Cash Rewards Redemption Options: Outline ScoreCard Rewards redemption options, minimum redemption amount $25.00, NonExpiring Rewards, web site information, at ScoreCardRewards.com.

ScoreCard® Bonus Point Program: Account holders earn one (1.5) Bonus Point for every one dollar ($1.00) of qualifying credit card
purchases. For more details on how your points are earned and redeemed please visit ScoreCardRewards.com.

Balance Transfer: All Balance Transfer requests are determined by your available line of credit and should your request exceed that
amount it will be declined. You do have the ability to request a line of credit increase to support your request if need be. Please allow
a minimum of up to two (2) weeks for processing and receipt by the identified recipients. Members 1st FCU is not responsible for any
fees or interest associated with the identified recipient account transfers. It is your responsibility to make all minimum payments on
any account from which you are transferring funds to thus insuring these accounts are in good standing, as well as closing them if
you choose to do so. Balance Transfers can be credited directly to a member’s checking or savings account. All Balance Transfers
incur interest charges at the disclosed APR from the time of the transaction date, not the check clearing date by the recipient.

Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit card account). The audio version of this disclosure can
be heard by calling 1-800-309-1766.

https://www.members1st.org/personal/spend/visa-cards/visa-signature-rewards-disclosure

2/2

